           OFFICE OF
    THE INSPECTOR GENERAL
SOCIAL SECURITY ADMINISTRATION

CONCURRENT BENEFICIARIES RELEASED
    FROM INCARCERATION WHOSE
  TITLE II BENEFITS HAVE NOT BEEN
             REINSTATED

     March 2012   A-01-11-21168




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                SOCIAL SECURITY
MEMORANDUM

Date:      March 13, 2012                                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Concurrent Beneficiaries Released from Incarceration Whose Title II Benefits Have Not
           Been Reinstated (A-01-11-21168)


           OBJECTIVE
           The objective of our review was to determine whether concurrent beneficiaries’ Title II
           benefits were reinstated along with Title XVI payments upon the beneficiaries’ release
           from incarceration. 1

           BACKGROUND
           The Social Security Act prohibits the payment of the following.
           •     Title II benefits to beneficiaries while they are confined to correctional institutions for
                 more than 30 days because they were convicted of a criminal offense. 2
           •     Title II benefits to beneficiaries while they are confined by court order to institutions
                 at public expense for more than 30 days because they were found (a) not guilty by
                 reason of insanity, (b) guilty but insane, (c) incompetent to stand trial, or (d) to have
                 a similar finding based on similar factors such as mental disease or incompetence. 3
           •     Title XVI payments to individuals if they are an inmate of a public institution (for
                 example, correctional institution) throughout a month. 4


           1
             SSA uses the term “concurrent” when a person receives benefits under both the Title II and XVI
           programs. Title II—Old-Age, Survivors and Disability Insurance—replaces some of the earnings lost due
           to a worker’s retirement, disability, or death. Title XVI—Supplemental Security Income—provides a
           minimum level of income to financially needy individuals who are aged, blind, or disabled. The Social
           Security Act §§ 201 et seq. and 1601 et seq., 42 U.S.C. §§ 401 et seq. and 1381 et seq.
           2
               Social Security Act § 202(x)(1)(A)(i), 42 U.S.C. § 402(x)(1)(A)(i).
           3
               Social Security Act § 202(x)(1)(A)(ii), 42 U.S.C. § 402(x)(1)(A)(ii).
           4
               Social Security Act § 1611(e)(1), 42 U.S.C. § 1382(e)(1).
Page 2 - The Commissioner


Title II benefits are reinstated effective the month following the beneficiary’s release
from incarceration. 5 Title XVI payments are reinstated effective the first month or
earliest day in a month the individual meets all eligibility requirements (including release
from incarceration). 6 To process these reinstatements, SSA staff must
•     review the inmate’s official release documents;
•     determine whether the beneficiary meets entitlement and eligibility factors before
      paying benefits; and
•     process the reinstatement through SSA’s systems, if reinstatement is appropriate. 7

While analyzing cases for our audit of Disability Insurance and Supplemental Security
Income Claims Allowed but Not Paid (A-01-10-10177), we found several cases where
SSA reinstated concurrent beneficiaries’ Title XVI payments after their release from
incarceration but did not reinstate their Title II benefits. We initiated this review to
determine the extent of this issue.

To conduct this review, we identified 1,042 cases in which SSA did not reinstate
concurrent beneficiaries’ Title II payments after their release from incarceration while
their Title XVI record was in current pay status. We randomly selected 100 cases from
this population for detailed analysis. (See Appendix A for our scope, methodology, and
sample results.)

RESULTS OF REVIEW
SSA did not reinstate some concurrent beneficiaries’ Title II benefits along with their
Title XVI payments upon their release from incarceration. In addition, the Agency did
not properly suspend some Title XVI payments along with Title II benefits upon the
beneficiaries’ incarceration. Based on our review, we estimate at the 90-percent
confidence level that SSA made improper payments of about $14 million to
823 concurrent beneficiaries. 8 Over 97percent of this total amount represents
payments that should have been made but were not because of the problem we
identified. The main cause of these errors was SSA staff not working on both parts of
the concurrent cases.




5
    SSA, POMS, GN 02607.840 A.2. (August 24, 2009).
6
    SSA, POMS, SI 02310.093 (May 23, 2001).
7
 Title XVI recipients generally have 12 consecutive months after the effective date of a suspension to
have benefits reinstated without filing an application. SSA, POMS, SI 02301.205 (July 22, 2008).
8
  The number of improperly paid beneficiaries lies within the lower limit of 746 beneficiaries and the upper
limit of 887 beneficiaries. The amount of improper payments lies within the lower limit of $11,617,285 and
the upper limit of $17,188,341. See Table A-3 in Appendix A for an estimate of the underpayment and
overpayment dollars.
Page 3 - The Commissioner


Specifically, of the 100 cases in our sample,
•     79 contained improper payments of $1.38 million because benefits were not properly
      reinstated or suspended because of incarceration;
•     16 did not need correction based on our referral; 9 and
•     5 were still under review as of January 2012.

IMPROPER PAYMENTS
                                                                      Chart 1: Sample Results
Of the 100 cases in our sample,
79 contained improper payments of                       16 (16%) No
                                                         Correction
$1.38 million because SSA did not                        Necessary
properly reinstate or suspend benefits
because of incarceration. This includes
$1.35 million underpaid Title II benefits
and $36,328 overpaid Title XVI
payments. Table 1 has a breakout of                       5 (5%)                                 79 (79%)
                                                        Still Under                             Improperly
these cases.                                             Review                                    Paid



                     Table 1: Breakout of Cases with Improper Payments
                                        Number          Title II            Title XVI       Total Amount
              Case Type                   of         Underpayment         Overpayment        Incorrectly
                                         Cases         Amount               Amount              Paid
Title II Reinstatement Cases                70        $1,315,731                   $0       $1,315,731
Title XVI Suspension Cases                   5                  $0           $28,368           $28,368
Both Title II Reinstatement and
                                               4           $30,169             $7,960           $38,129
Title XVI Suspension Cases
Total                                        79        $1,345,900            $36,328         $1,382,228

                     In 74 of the 79 cases with improper payments, SSA reinstated
     Title II Benefits
                     Title II benefits after our referral because beneficiaries were no
     Reinstated
                     longer incarcerated. 10 As of January 2012, the Agency had
                     calculated past-due benefits totaling $1,345,900. The average
past-due benefit was $18,188, and these past-due benefits ranged from a low of
$153 to a high of $75,793. These past-due benefits occurred over an average of
42 months, ranging from 4 to 150 months.




9
    Of these 16 cases, SSA had corrected 6 before our referral, and 10 did not require correction.
10
     Four beneficiaries also had Title XVI payments suspended.
Page 4 - The Commissioner


Of the $1,345,900 in past-due benefits,
•     $476,966 was paid to the beneficiaries,
•     $533,669 was used to collect overpayments from other benefits the beneficiaries
      were receiving, 11 and
•     $335,265 was calculated but was pending further action by SSA staff.

Table 2 shows the range of past-due benefits SSA had calculated for the
74 beneficiaries as of January 2012.

                            Table 2: Summary of Past-due Benefits
                                                           Number of
                       Past-due Benefits Range                               Percent
                                                           Claimants
        $0 to $10,000                                          38             51%
        $10,001 to $25,000                                     16             22%
        $25,001 to $50,000                                     14             19%
        $50,001 to $100,000                                     6              8%
        TOTAL                                                  74            100%

For example, a man from Michigan was receiving both Title II and XVI benefits. In
December 1997, SSA suspended both benefits because he was incarcerated. He was
released from prison in November 2000 and his Title XVI payments resumed as of
January 2001, but his Title II benefits remained suspended as of June 2011, when we
referred this case to SSA. After our referral, SSA reinstated his Title II benefits as of
January 2001. The beneficiary was due $45,727 in past-due benefits over 129 months,
with $1,701 paid to the beneficiary, $43,400 used to repay Title XVI payments issued
during this period, and $626 used to repay an overpayment on the record. With his
combined benefits, he receives $20 more per month than he was receiving before SSA
corrected the record.

In another example, SSA approved a woman from Tennessee for Title II and XVI
benefits in September 2009. After receiving an alert that the beneficiary was
incarcerated in January 2009, the Agency suspended the Title II benefits retroactively
back to the first month paid but did not suspend her Title XVI payments. We referred
this case to SSA in June 2011, and the Agency determined the beneficiary was
released from prison in March 2009. As a result, SSA staff reinstated her Title II
benefits that were previously suspended. The beneficiary was due $19,953 in past-due
benefits over 27 months, with $12,824 paid to the beneficiary and $7,129 used to repay
an overpayment on the record. Before our referral, the beneficiary was receiving
$449 per month in Title XVI payments. As of October 2011, the beneficiary was
receiving $739 per month in Title II benefits.




11
     SSA garnished over $12,000 of this amount.
Page 5 - The Commissioner


     Title XVI Payments   In 9 of the 74 cases with improper payments, SSA
     Suspended            suspended Title XVI payments because of incarceration.
                          As of October 2011, the Agency had posted overpayments
                          of $36,327 for nine recipients. 12 The average overpayment
was $4,036, and these overpayments ranged from a low of $674 to a high of $17,327.
These overpayments occurred over an average of 15 months, ranging from 1 to
55 months.

For example, SSA suspended a man’s Title II benefits in April 2008 because of
incarceration but did not suspend his Title XVI payments. The beneficiary was released
from prison a few weeks before we referred the case to SSA in June 2011. In
August 2011, SSA suspended his Title XVI payments and recorded an overpayment of
$17,327 for a period of 39 months.

In another example, SSA suspended a man’s Title II benefits in August 2010 because of
incarceration while his Title XVI payments continued. We referred this case to SSA in
June 2011. As a result, the Agency suspended his Title XVI payments and posted an
overpayment of $4,493 for Title XVI payments received while incarcerated.

CONCLUSION AND RECOMMENDATIONS
SSA improperly paid some concurrent beneficiaries because of incarceration. We
estimate SSA improperly paid about 823 concurrent beneficiaries approximately
$14 million because both benefits were not properly reinstated or suspended because
of incarceration. Over 97 percent of this total amount represents payments that should
have been made but were not because of the problem we identified.

We recommend that SSA:
1. Review the remaining cases in our population in which it appears the Title II benefits
   were not reinstated after the beneficiaries’ release from incarceration and/or
   Title XVI payments were not suspended and take appropriate corrective action. 13
2. Remind staff to consider both Title II and XVI benefits when suspending and
   reinstating benefits because of incarceration.

AGENCY COMMENTS
SSA agreed with the recommendations. See Appendix B.



                                                  Patrick P. O’Carroll, Jr.

12
     Four of these recipients also had Title II benefits reinstated.
13
     On January 10, 2012, we provided SSA with a file of 621 cases.
                                   Appendices
APPENDIX A – Scope, Methodology, and Sample Results
APPENDIX B – Agency Comments
APPENDIX C – OIG Contacts and Staff Acknowledgments
                                                                                    Appendix A

Scope, Methodology, and Sample Results
To achieve our objective, we:

•   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, rules, policies, and procedures.
•   Reviewed prior Office of the Inspector General reports.
•   Obtained a file of 1,042 concurrent claimants whose Title II record was suspended
    for incarceration while their Title XVI record was in current pay status. 1
•   Selected a random sample of 100 cases for detailed review. For each case, we:
      Reviewed SSA’s systems, including the Master Beneficiary and Supplemental
       Security Income Records, to determine whether Title II benefits should be
       reinstated or Title XVI payments should be suspended.
      Referred cases to the Agency for corrective action where it appeared that SSA
       did not properly reinstate or suspend benefits.
      Calculated the amount of benefits under- or overpaid to beneficiaries because
       SSA did not properly reinstate/suspend benefits because of incarceration.
•   Projected the number of concurrent beneficiaries who were improperly paid because
    benefits were not properly reinstated or suspended because of incarceration, along
    with the amount of benefits improperly paid.

We conducted our audit between May 2011 and February 2012 in Boston,
Massachusetts. The entity audited was SSA’s Regional Commissioners under the
Office of the Deputy Commissioner for Operations. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We tested the data obtained for our audit and determined them to be
sufficiently reliable to meet our objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




1
  We did not review concurrent claimants whose Title XVI record was suspended for incarceration while
the Title II record was in current payment status. This is because Title XVI payments are suspended
when an individual is incarcerated throughout a month, while Title II benefits are suspended when an
individual is incarcerated more than 30 days and convicted of a crime. Additionally, there could be other
reasons why a recipient’s Title XVI payments were not reinstated after Title II benefits, such as excess
income or resources.


                                                   A-1
SAMPLE RESULTS

                    Table A-1: Population and Sample Size
     Population size                                                        1,042
     Sample size                                                              100

                  Table A-2: Cases with Improper Payments
                                Attribute Projections
     Sample cases                                                               79
     Point estimate                                                           823
     Projection lower limit                                                   746
     Projection upper limit                                                   887
         Note: All projections were calculated at the 90-percent confidence level.


                  Table A-3: Amount of Improper Payments
                                  Dollar Projections
                             All Improper Payments
     Sample results                                                   $1,382,228
     Point estimate                                                 $14,402,813
     Projection lower limit                                         $11,617,285
     Projection upper limit                                         $17,188,341
                              Underpayments Only
     Sample results                                                   $1,345,900
     Point estimate                                                 $14,024,281
     Projection lower limit                                         $11,212,474
     Projection upper limit                                         $16,836,088
                               Overpayments Only
     Sample results                                                      $36,327
     Point estimate                                                     $378,532
     Projection lower limit                                              $69,559
     Projection upper limit                                             $687,504
          Note: All projections were calculated at the 90-percent confidence level.




                                            A-2
                  Appendix B

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      March 1, 2012                                                          Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Concurrent Beneficiaries Released from
           Incarceration Whose Title II Benefits Have Not Been Reinstated” (A-01-11-21168)—
           INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Teresa Rojas, at (410) 966-6784.

           Attachment




                                                          B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“CONCURRENT BENEFICIARIES RELEASED FROM INCARCERATION WHOSE
TITLE II BENEFITS HAVE NOT BEEN REINSTATED” (A-01-11-21168)


Recommendation 1

Review the remaining cases in our population in which it appears the Title II benefits were not
reinstated after the beneficiaries’ release from incarceration and/or Title XVI payments were not
suspended and take appropriate corrective action.
Response

We agree.

Recommendation 2

Remind staff to consider both Title II and XVI benefits when suspending and reinstating benefits
because of incarceration.
Response

We agree.




                                               B-2
                                                                         Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Katie Greenwood, Senior Auditor

   Kevin Joyce, IT Specialist

   N. Brennan Kraje, Statistician

   Alla Resman, IT Specialist

For additional copies of this report, please visit our Website at http://oig.ssa.gov or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-01-11-21168.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
